                         -.                    4
DOE F 1325.8
(08-93)
United States Government                                                          Department of Energy


memorandum
      DATE:     April 23, 2004                                      Audit Report Number: OAS-L-04-16

   REPLY TO
    ATTN OF:    IG-35 (A04YT023)

    SUBJECT:    Audit Report on "Modernization Activities at the Y-12 National Security Complex"

          TO:   Richard Speidel, Director, Policy and Internal Controls Management, NA-66

                INTRODUCTION AND OBJECTIVE

                As part of the National Nuclear Security Administration's (NNSA) nuclear weapons
                complex, the Y-12 National Security Complex (Y-12) performs critical roles in
                strengthening national security and reducing the global threat from weapons of mass
                destruction. The Y-12 modernization plan (plan) seeks to foster the development of a
                physical plant that is efficient and effective in serving its national security missions. The
                plan was used to develop the Y-12 Ten-Year Comprehensive Site Plan. Line-item projects
                proposed in each Department of Energy (Department) site's Ten-Year Comprehensive Site
                Plan are considered for inclusion in the Department's overall Integrated Construction
                Program Plan (ICPP). The ICPP is a mechanism that allows the Department to anticipate
                and respond to individual program needs, optimize available resources, and support
                improved project execution.

                The modernization plan for Y-12 focuses on the Security Improvement Project, which
                includes reduction of the Perimeter Intrusion Detection and Assessment Systems (PIDAS)
                area. Y-12 has the largest PIDAS in the nuclear weapons complex, encompassing over
                two miles of security fencing and hardware. A major goal of the plan is to reduce the
                PIDAS area by 60 percent in order to make Y-12 more secure as well as achieve
                operational efficiencies.

                The purpose of this audit was to determine whether the Department's modernization plan
                for Y-12 would achieve its intended objectives.

                CONCLUSIONS AND OBSERVATIONS

                We found that Y-12's plan would likely achieve modernization goals if sufficient funding is
                provided. Currently, individual projects that contribute to reducing the PIDAS are receiving
                funding priority in the plan. Specifically, these projects are funded and included in the
                Department's overall ICPP.

                However, the Security Improvement Project, which is the vital project for achieving the ultimate
                reduction of the PIDAS, is not funded and is not fully included in the Department's ICPP. The
                                                2


Security Improvement Project is mentioned in the ICPP, but it is not considered a valid part of
the ICPP, nor is it supported in the current budget planning process. We noted that if the
Security Improvement Project is not added to both the ICPP and the budget planning cycle, it
will not be completed in a timely manner since the project will not be funded. Accordingly, if
funding is not provided for the Security ImprovemenfProject, although supporting projects
would be completed, the expected security and cost benefits will not be realized. Thus, we
suggest that the Department reevaluate the Security Improvement Project's position in the ICPP
and funding hierarchy.

SCOPE AND METHODOLOGY

The audit was performed from November 2003 to April 2004 at the Y-12 National Security
Complex in Oak Ridge, Tennessee. The scope of the audit included the current
Y-12 modernization plan prepared by BWXT Y-12 LLC. To accomplish the audit
objective, we reviewed planned modernization activities at Y-12 and discussed those
activities with Department and contractor personnel. The audit was performed in
accordance with generally accepted Government auditing standards for performance audits
and included tests of internal controls and compliance with laws and regulations to the
extent necessary to satisfy the audit objective. Because our review was limited, it would
not necessarily have disclosed all internal control deficiencies that may have existed at the
time of our audit. Also, since the audit did not disclose a finding with recommendations,
we did not conduct a data reliability assessment.

The Government Performance and Results Act (GPRA) of 1993 was enacted to improve
Federal program effectiveness and public accountability by prornoting a new focus on
results-oriented management. Accordingly, the Department developed performance
measures to assess the effectiveness of the modernization program at Y-12. We did not
identify any instances where the Department was in noncompliance with GPRA.

We coordinated the report with both NNSA Headquarters and Y-12 officials. Since no
formal recommendations are being made in this letter report, a formal response is not
required. We appreciate the cooperation of your staff throughout the audit.




                                Lawrence R. Ackerly, Dir tor
                                National Nuclear Securi Administration
                                 Audits Division
                                Office of Inspector General

cc: Team Leader, Audit Liaison Team, ME-100
    Audit Liaison, Y-12 Site Office
    Audit Liaison, Oak Ridge Operations Office
DOE F 1325.8
(08-93)
United States Government                                                              Department of Energy


memorandum
          DATE:    April 23, 2004
   REPLY TO
    ATTN OF:       IG-35 (A04YT023)

    SUBJECT:       Final Report Package for "Modernization Activities at the Y-12 National Security Complex"

             TO:   Director for Performance Audits and Administration

                   Attached is the required final report package on the subject audit. The pertinent details are:

                   1. Actual Staff days: 131

                      Actual Elapsed days: 157

                   2. Names of OIG audit staff:

                         Assistant Director: Tara Elmore
                         Team Leader: Dawnya Hathaway
                         Auditor-in-Charge: Janice Brashears
                         Audit Staff: Laura Slatton, Sherri Buchanan

                   3. Coordination with Investigations and Inspections: The final report was sent to Walt
                      Warren, Investigations and Geoffrey Gray, Inspections on April 19, 2004. Our audit
                      report will not impact any ongoing or planned investigations or inspections.




                                                           Lawrence R. - c    y Di    on Director
                                                          National Nuclear Secty Administration
                                                           Audits Division
                                                          Office of Inspector General

                   Attachments:
                   1. Final Report (2)
                   2. Monetary Impact Report
                   3. Audit Project Summary Report
                   4. Audit Database Information Sheet
                          MONETARY IMPACT OF REPORT NO.: OAS-L-04-16


 1. Title of Audit:          "Modernization Activities at the Y-12 National Security Complex"

2. Division:                 NNSA Audits Division/Y-12 Audits Group

3. Project No.:              A04YT023

4. Type of Audit:

       Financial:                                              Performance:       X
         Financial Statement                                     Economy and Efficiency                  X
          Financial Related                                      Program Results
       Other (specify type):

5.

                                                                                                       MGT.           POTENTIAL
           FINDING                     COST                       QUESTIONED COSTS                   POSITION          BUDGET
                                    AVOIDANCE                                                                          IMPACT
 (A)              (B)              (C)      (D)         (E)          (F)       (G)         (H)          (1)               (J)
                  Title           One    Recurring   Questioned    Unsup-    Unre-        Total      C=Concur           Y=Yes
                                  Time   Amount                   . ported   solved    (E)+(F)+(G)   N=Noncon           N=No
                                          PerYear                                                    U=Undec
       Modernization Activities   $0     $0          $0




TOTALS--ALL FINDINGS              $O     $0          $0                                              .                             __


 6. Remarks:

We found that Y-12's plan would likely achieve modernization goals if sufficient funding is
provided. Currently, individual projects that contribute to reducing the PIDAS are receiving
funding priority in the plan. Specifically, these projects are funded and included in the
Department's overall ICPP. However, the Security Improvement Project, which is the vital project
for achieving the ultimate reduction of the PIDAS, is not funded and is not fully included in the
Department's ICPP.

 7. Contractor:   None                                    10. Approvals:
 8. Contract No.:     None                                Division Director & Date/,                            ~l/,l
 9. Task Order No.:               None                    Technical Advisor & Date                              /-_   _     _--_
                                                        Office of the Inspector General (OIG)
                                                  Audit Project Office Summary (APS)
                                                                                                                            Page 1
Report run on:                          April 21,         2004 1:11 PM


   Audit#: A04YT023                    Ofc:       Y2A     Title: MODERNIZATION ACTIVITIES AT Y-12 NATL SEC COM

                                                                     ****    Milestones ****
                                                         Planned            End of Survey         Revised          Actual


                                                        01-OCT-03                               17-NOV-03       17-NOV-03
   Entrance Conference:.....
   Survey..................14-MAY-04
   Draft Reports............
   Completed (With Report):.                            30-SEP-04                               02-JUL-04                    )
   ----------           Elapsed Days:                         365                                     228            157
                                                                                                      Elap. Less Susp:

   Date Suspended:                                                      Date Terminated:
   Date Reactivated:                                                    Date Cancelled:
   DaysSuspended(Cur/Tot):                                (           )Report Number:
   Rpt Title:                                                              Report Type:               Not Found




                                                         **** Audit Codes and Personnel ***

   Class:           PER     PERFORMANCE
   Program:         DP3     Not Found
   MgtChall: 005            NATIONAL SECURITY (F
                                                                                          AD:   255    ELMORE
   Site:            SSA     SINGLE-SITE AUDIT
                                                                                      AIC:      734    BRASHEARS
   SecMiss:        NNS      NATIONAL NUCLEAR SEC                                          :            HAHAA
                                                                                 Team Ldr:      669    HATHAWAY
   PresInit:                Not Found                                            Tech Adv:      432    GAMAGE

                                                              "***    Task Information ****

          Task No:
           Task Order Dt:                                               CO Tech. Rep:
           Orig Auth Hrs:                                                  Orig Auth Costs:
           Current Auth:                                                Current Auth Cost:
           Tot Actl IPR Hr:                                             Tot Actl Cost:


                                                                ****       Time Charges ****

                           Ep/Cont Naae                    Ruaday,               -LastDate
                         FOWLER, E                                   1.7        17-APR-04
                         HATHAWAY,            D                  10.0           17-APR-04
                         BRASHEARS, J                            39.3           17-APR-04
                         SLATTON, L                              39.5           17-APR-04
                         BUCHANAN, S                             40.8           03-APR-04
                          Total:                                131.3
             AUDIT DATABASE INFORMATION SHEET

1.    Project No.: A04YT023

2.    Title of Audit: Modernization Activities at the Y-12 National Security Complex

3.    Report No./Date: OAS-L-04-16/April 23, 2004

4.    Management Challenge Area: National Security

5.    Presidential Mgmt Initiative: N/A

6.    Secretary Priority/Initiative: National Security - Defense Programs - Ensuring
      the Safety and Reliability of the Nuclear Stockpile

7.    Program Code: DP

8.    Location/Sites: Y-12 National Security Complex

9.    Finding Summary: We found that Y-12's plan would likely achieve
      modernization goals if sufficient funding is provided. Currently, individual
      projects that contribute to reducing the PIDAS are receiving funding priority in
      the plan. Specifically, these projects are funded and included in the Department's
      overall ICPP. However, the Security Improvement Project, which is the vital
      project for achieving the ultimate reduction of the PIDAS, is not funded and is not
      fully included in the Department's ICPP. The Security Improvement Project is
      mentioned in the ICPP, but it is not considered a valid part of the ICPP, nor is it
      supported in the current budget planning process. We noted that if the Security
      Improvement Project is not added to both the ICPP and the budget planning cycle,
      it will not be completed in a timely manner since the project will not be funded.
      Accordingly, if funding is not provided for the Security Improvement Project,
      although supporting projects would be completed, the expected security and cost
      benefits will not be realized. Thus, we suggest that the Department reevaluate the
      Security Improvement Project's position in the ICPP and funding hierarchy.

10.   Keywords:

       Y-12 National Security Complex            Integrated Construction Program Plan
       Master (Modernization) plan               Ten Year Comprehensive Site Plan
      .Projects                                  Oak Ridge
       Perimeter Intrusion Detection &           BWXT Y-12 LLC
       Assessment Systems
       NNSA                                      Security Improvement Project
